Audit of the Controls over Inappropriate Personal Use of the
                      Internet at NARA


                OIG Audit Report No. 11-10


                      March 8, 2011
Table of Contents


Executive Summary ........................................................................................ 3

Background ..................................................................................................... 4

Objectives, Scope, Methodology .................................................................... 5

Audit Results................................................................................................... 6

Appendix A – Example of                                              Accessed with no Web Filter
Restriction ..................................................................................................... 16

Appendix B – Example of Web Filter Bypass                                               ........................ 17

Appendix C – Example of a Site Accessed by
                          ........................................................................ 18

Appendix D – Example of Inappropriate Sites Accessible through Message
Boards and Forums ....................................................................................... 19

Appendix E – Example of Discrepancies in Sites Blocked across NARA's
Network......................................................................................................... 20

Appendix F – Management's Response to the Report .................................. 21

Appendix G – Report Distribution List ........................................................ 22
                                                                 OIG Audit Report No. 11-10


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General
(OIG) completed an audit of NARA’s controls over the inappropriate personal use of the
internet by NARA staff. NARA has established policy over the staff’s usage of the internet,
which the Office of Information Services (NH) and the Office of Administration (NA), with
the support of General Council (NGC), monitor and enforce. During this audit, we assessed
the effectiveness of the controls and procedures NARA has in place to fully implement its
policy.

In May 2010, NARA issued revised Directive 802, Appropriate Use of NARA Office and
Information Technology (IT) Equipment and Resources, authorizing staff to use NARA office
and IT equipment and resources when performing limited personal use during non-work
time, provided the use does not interfere with official business or involve inappropriate use.
Within the scope of this audit, the Directive defines inappropriate personal use as that in
which a NARA employee engages in activities that are illegal or offensive. This includes
accessing materials that are sexually explicit or involve gambling, weapons, or terrorist
activities. In the past, NARA relied almost exclusively on its automated web filtering
application to ensure NARA staff were not accessing inappropriate material. However, due
to the failures of similar controls at other agencies recently coming to the attention of
Congress and the media, NARA supplemented its web filtering application with monthly
reporting procedures.

Our review found that although NARA has invested in tools and implemented procedures to
monitor and prevent inappropriate internet usage by its staff, controls remain inadequate and
NARA employees continue to access prohibited material. NARA staff have been able to
bypass the web filter and go undetected for the past four years, as this is when NARA began
relying almost solely on its web filtering application to automatically block inappropriate use.
NARA’s web filtering application is generally successful in blocking the majority of NARA
staff that carelessly or inadvertently attempt to access inappropriate material. However, as
reported at other agencies, the real risk comes from the staff who regularly bypass the
inappropriate use controls, which was not found to be difficult at NARA. NARA’s web
filtering application maintains a record of all NARA staff internet usage—which is
invaluable in detecting employees who bypass the controls—however, even after NARA
recently implemented its monthly reporting process, the limited amount of information
reviewed and analysis conducted by NARA allowed excessive personal and inappropriate use
to go undetected or unaddressed. Consequently, NARA is at risk for decreased public trust,
reduced employee productivity, legal liability, and degradation of network performance.

Our audit identified several improvements to be made to NARA’s controls in preventing its
staff from inappropriate use of computer resources. We made five recommendations to more
thoroughly ensure that NARA Directive 802 is enforced and risks are minimized.




                                         Page 3
                      National Archives and Records Administration
                                                                OIG Audit Report No. 11-10


Background


NARA continues to embrace the ever increasing efficiencies of the internet in performing its
mission. Examples are contained throughout the FY 2010 Performance and Accountability
Report, which includes NARA’s ongoing efforts to utilize social media and internet
networking tools as a way to communicate and deliver timely information to the public.
Furthermore, NARA—like nearly all modern organizations—depends on the internet at the
most basic level for its employees to perform research, stay informed with current events
affecting their job responsibilities, and communicate with fellow colleagues and NARA
business partners.

In addition to internet usage by staff in support of NARA’s mission, NARA also recognizes
the benefits of allowing staff to access the internet for limited personal use while at work.
NARA Directive 802, Appropriate Use of NARA Office and Information Technology (IT)
Equipment and Resources, specifically allows this in an effort to create a more supportive
work environment. Benefits of such a policy generally go undisputed. However, left
unchecked, some employees will inevitably abuse such privileges putting the agency at risk.

An example of employee abuse of the internet within another federal agency was reported in
the media this past year. Ongoing investigations at the Securities and Exchange Commission
(SEC) discovered a number of SEC employees were attempting to access inappropriate
material on the internet while at work. One of the SEC investigations was conducted at the
request of a U.S. Senator. The investigations discovered the SEC’s web filter blocked many
of the attempts made by its staff, however, employees were able to bypass the filter and gain
access to a significant number of inappropriate sites.

Shortly after the most recent SEC investigation was reported, NARA began developing a
procedure to supplement the web filter control that had been in place since 2007. This
procedure involved the Office of Information Services (NH) using the web filter application
to generate reports listing NARA staff with multiple blocked website access attempts in the
categories defined as inappropriate by NARA Directive 802. The initial report was run for a
one week period at the end of April 2010, at which time it was provided to the Office of
Administration (NA) and General Council (NGC). The report indicated ongoing abuse had
been taking place, for example, one NARA employee identified in the report accumulated
40,000 blocked attempts during the initial one week reporting period. Beginning in July
2010, NA and NGC began receiving this report on a monthly basis.

Inappropriate internet usage by NARA staff is not a new occurrence at the Agency. The OIG
previously reported on this matter in April 2003. Following the 2003 review, NARA
developed corrective actions that were initially put in place to monitor and deter
inappropriate internet usage in accordance with NARA Directive 802. However, as the
controls in place continue to evolve, NARA must ensure the associated risks remain
mitigated.



                                         Page 4
                      National Archives and Records Administration
                                                             OIG Audit Report No. 11-10


Objectives, Scope, Methodology

The overall objective of this audit was to determine whether NARA’s controls were
adequate and effective in preventing and deterring NARA staff from using their
government-assigned workstations to access inappropriate internet material, as defined by
NARA Directive 802, Appropriate Use of NARA Office and Information Technology (IT)
Equipment and Resources. Our review focused on whether NARA employees were in
compliance with directives restricting access to inappropriate web sites, and whether
controls and administrative processes in place adequately prevent and deter NARA staff
from accessing these sites.

To accomplish our objective, we interviewed key NARA personnel and contractor staff
from the Office of Information Services and the Office of Administration and examined
NARA policies governing the appropriate use of the internet. We gained an
understanding of NARA’s internet monitoring process, web filtering application, and
administrative and disciplinary procedures. We obtained the monthly agency-wide
reports listing NARA staff with multiple blocked website access attempts and from these
reports, judgmentally selected samples of specific NARA staff with high numbers of
blocked attempts. For the NARA staff sampled, we requested detailed internet usage
logs, which were generated using NARA’s web filtering application. The monthly
reports and detailed user logs were analyzed extensively by the auditors to determine the
methods and degree of inappropriate usage and the effectiveness of the procedures in
place to prevent such activity. The usage logs only contained data from when the users
were connected to NARA’s network, therefore, usage data while working from home
with a personal internet connection was not included in our review.

Our audit work was performed at Archives II in College Park, MD between September
2010 and January 2011. We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                        Page 5
                     National Archives and Records Administration
                                                                  OIG Audit Report No. 11-10


Audit Results

Controls to Prevent NARA Staff from Accessing Inappropriate
Material are not Fully Effective
Although NARA has invested in tools and implemented procedures to monitor and prevent
inappropriate internet usage by its staff, NARA employees continue to access prohibited
material. This condition exists because NARA is over confident in the effectiveness of its
web filtering application, does not fully utilize the features of this application, and has not
established adequate procedures to consistently enforce its policy on inappropriate internet
usage. As a result, NARA is at risk for decreased public trust, reduced employee
productivity, legal liability, and degradation of network performance.

In May 2010, NARA issued revised Directive 802, Appropriate Use of NARA Office and
Information Technology (IT) Equipment and Resources, maintaining authorization for NARA
staff to use NARA office and IT equipment and resources when performing limited personal
use during non-work time so long as the use does not interfere with official business or
involve inappropriate use. The Directive provides examples of inappropriate use, which
(within the scope of this audit) include:

    •   Using NARA office equipment to engage in activities that are illegal or offensive to
        fellow staff or the public,
    •   Creating, downloading, viewing, storing, copying, or transmitting sexually explicit or
        sexually oriented materials,
    •   Engaging in any activity prohibited by law or regulation, including illegal gambling,
        weapons, or terrorist activities,
    •   Any use of NARA office equipment that could generate more than minimal
        additional expense to NARA, and
    •   Downloading games and/or playing them during official business hours.

The Directive stipulates NARA has the right to block access to sites that may contain
inappropriate content. Further, the Directive states NARANET system managers use
monitoring tools to detect improper use of the system and IT equipment. Lastly, the
Directive identifies the potential consequences of inappropriate use, stating violators may be
subject to disciplinary action or prosecution.

During the audited time period, consisting of user data from June 2010 through October 2010,
roughly 39% of NARA workstation users made multiple attempts at accessing one or more
categories of inappropriate sites monitored by NH, NA, and NGC. These categories include:

    •   Adult Material: Adult Content,
    •   Adult Material: Lingerie and Swimsuit,
    •   Adult Material: Nudity,

                                          Page 6
                       National Archives and Records Administration
                                                                OIG Audit Report No. 11-10

   •   Adult Material: Sex,
   •   Gambling,
   •   Racism and Hate, and
   •   Violence.

Although the numbers are alarming, attempts at accessing sites falling within these categories
can at times be made unintentionally by NARA staff during normal internet usage. However,
the information above is calculated using the threshold—five or more attempts per category,
per month—established by NH, NA, and NGC in their monthly reporting and monitoring
practices. The majority of attempted inappropriate internet site visits made by NARA staff
fell into the “Adult Material” categories, the proportions are presented in the chart below.


              Inappropriate Categories Attempted by
                           NARA Staff
                        Racism and Hate              Violence
                              1%                        1%


                                  Gambling
                                    20%


                                              Adult Material
                                                   78%




Of the NARA staff who attempted to access inappropriate sites, on average, 90% made fewer
than 50 attempts in each of the months analyzed. The remaining 10% of NARA staff listed
in the monthly reports individually attempted to access inappropriate sites from 50 to as high
as 13,816 times during the months analyzed. In certain situations, high attempts at accessing
inappropriate material can be a result of users inadvertently loading malware onto their
NARA workstations. However, the analysis performed on the individual user logs of the
staff sampled for this review indicated the users intentionally attempted to access
inappropriate material on multiple occasions.

Over Confident in the Effectiveness of Web Filtering Application

NH personnel expressed in multiple meetings and correspondence that the current web filter
in use, Websense, is more advanced and “robust” than the application NARA used in the
past. Therefore, once Websense was implemented in the 2007 timeframe, NH discontinued
generating monthly reports detailing inappropriate usage. NH personnel questioned the value
of a report showing blocked attempts, as the users theoretically never gained access to the
inappropriate sites. However, following more recent discussions with the Archivist regarding
                                           Page 7
                      National Archives and Records Administration
                                                                OIG Audit Report No. 11-10

the inappropriate usage at the Securities and Exchange Commission (SEC), NH developed a
new monthly inappropriate usage reporting process, which they fully implemented in the July
2010 timeframe.

Prior to the implementation of the new monthly reporting process, NARA relied almost
exclusively on Websense to prevent NARA staff from accessing inappropriate websites.
Once the new procedure went into effect, NA and NGC began receiving a list of users who
had five or more blocked attempts in one or more categories during the month. The reports
listed numerous NARA employees who consistently made hundreds and even thousands of
attempts to access inappropriate material during each month. Although NA prepared to take
disciplinary action against one NARA employee for extensive inappropriate use, the
employee left the agency before such actions were executed. Apart from that incident, no
other official disciplinary action related to inappropriate usage has taken place since NH
initiated the reporting process.

During our review, we selected a sample of users from the monthly inappropriate usage
reports NH provided NA and NGC. For the users sampled, we requested the full user
internet activity logs (which Websense maintains for every NARA user/workstation for
roughly three months). Based on previous correspondence with NH personnel, we expected
little evidence of users bypassing the “robust” web filter. However, an initial review of the
detailed user activity logs indicated this was not the case. After analyzing the logs more
thoroughly, and testing Websense’s capabilities, we identified the following web filter
weaknesses:

   •   NARA staff are able to easily access sexually explicit material                A few
       examples of the hundreds of sites visited by NARA staff with no web filter
       restrictions include “                                  ”
       “                                ” and “                           ” These sites and
       others like them contain page after page of sexually graphic images, yet they are
       categorized by Websense as
       which is not a blocked category. One NARA staff member viewed sexually explicit
                  nearly 4.5 hours in one day, and accessed to some degree 1,300 explicit
               n 28 days, with no web filtering restrictions. (See Appendix A for further
       detail on how NARA staff bypass Websense using this method).

   •   Users are able to access                 designed to bypass Websense and other web
       filters. By accessing                 the user simply

                         . Websense only recognizes                  , not the inappropriate
       site visited                  Websense tracks the user going to                   but
       this information is not included in the monthly reports to NA and NGC. By not
       following-up on users visiting sites such as “                 ”“                   ,”
       and “                    ” NARA is turning a blind eye to users easily bypassing
       Websense. One user alone accessed                      sites 513,537 times over a three


                                         Page 8
                      National Archives and Records Administration
                                                                   OIG Audit Report No. 11-10

       month period. (See Appendix B for further detail on how NARA staff bypass
       Websense using this method).

   •   Users                            to access inappropriate sites, which likely resulted in
       the users gaining access. We tested Websense’s blocking ability on a number of the
       inappropriate sites that were attempted by NARA staff. For the vast majority of sites
       tested,                                                     would result in successful
       access (usually only requiring                                     ). Furthermore, even if
                        of the inappropriate site was blocked by Websense,
                                       containing inappropriate material were often not filtered
       and easily accessible. On a monthly basis, one user made hundreds
                                   a website that identifies itself as the “world’s largest sports
       betting community.” Another user                                           a website that
       calls itself the “home of porn,” which contains sexually explicit images and videos.
       Based on our testing, it is highly likely these users gained access
                  (See Appendix C for further detail on how NARA staff bypass Websense
       using this method).

   •   Users are able to easily access forums, auction sites, and dating sites for multiple
       hours per day. Although there may be legitimate reasons for accessing craigslist
       discussion forums, one NARA staff’s detailed internet activity log showed, for 10
       days analyzed, evidence of an average of 2 hours a day devoted to non-work related
       auctions and forums, some involving dating and sexually explicit topics. The same
       user was able to frequently access                        which identifies itself as “a list
       of official (listed) and unofficial (hidden/secret/unlisted/ unsupported/homesteaded)
       craigslist forums.” This directory contains a number of graphic adult forums, which
       include images and discussions of an inappropriate nature, which are rarely blocked
       by Websense. (See Appendix D for further detail on how NARA staff bypass
       Websense using this method).

   •   Users at
       (and possibly other NARA field locations) are not blocked when attempting access to
       inappropriate websites in uniformity with Archives II. While performing a separate
       review at       we observed broad access to inappropriate sites while using NARA’s
       network at this location. In one example, a hack site “            ” was accessed
       with no restriction at     however, the same website was appropriately blocked at
       Archives II. (See Appendix E for further detail).

Aside from the weaknesses identified above, Websense has intermittent failures that allow
NARA staff to access inappropriate sites without restriction. We observed one of these
intermittent failures while testing Websense’s capabilities, which lasted nearly 6 hours. NH
indicated that they typically do not become aware of intermittent Websense failures except in
the rare event in which a NARA user reports the failure. NH explained that they have a
known issue with the hardware supporting Websense. If the application becomes saturated
                                            Page 9
                       National Archives and Records Administration
                                                               OIG Audit Report No. 11-10

with internet traffic, it may intermittently let inappropriate access requests go through.
NARA is in the process of upgrading Websense to a newer version due in part to the current
version not always being able to handle NARA staff’s internet traffic.

During the entrance conference of this audit, after discussing the SEC’s findings of
inappropriate use within their agency, an NH official mentioned that the SEC’s situation was
likely a result of not having anyone monitor or look at the records. In a follow-on meeting,
another NH official stated that the SEC did not have a web filtering product “as good as
Websense.” However, until recently, NARA had not been looking at its own staff’s
inappropriate usage records, but instead relied almost exclusively on its web filtering
application to prevent access to prohibited sites. As confident as NARA may be in its
perceived “robust” web filtering application, NARA staff are easily able to bypass Websense.
This was clearly evident by the sample of user logs analyzed during our review. Once
informed of the methods NARA staff used to bypass the web filter, NH agreed that the sites
accessed should have been blocked by NARA’s web filter and that the current control
procedures are not identifying all inappropriate user activity. Further, NH agreed the
information pertaining to the bypass methods identified in this report should be used in
developing revised control reporting methods in conjunction with NA and NGC.

Underutilization of Available Web Filtering Application Features

NARA is in the process of upgrading to a newer version of Websense. The most recent one
year renewal of Websense licenses and support amounted to just over $158,500 (this figure
does not include the associated hardware upgrades). However, even with the older version,
NARA was not using all the Websense features available to deter and monitor NARA staff’s
inappropriate use of the internet. The following Websense functions are underutilized by
NARA:

   •   Reporting. Websense allows the administrator to generate standard and customizable
       reports on all user information (going back as far as approximately three months).
       See Figure 1 below for a screenshot of Websense’s standard report menu. Examples
       of the standard Websense reports include: “which users were blocked most,” “top
       users in adult categories,” and “users that spent the most time on [non-] productivity
       sites.” In addition to the many useful standard reports, NH can also generate
       customized reports pulling whatever data is needed, either by groups or individuals,
       real-time or historical timeframes, for any or all categories. Once NH establishes the
       customized report criteria, as with the standard reports, one click of the mouse begins
       the automatic process of pulling the data. Currently, NA and NGC only receive a
       summary report of the blocked attempts for the seven categories defined earlier. User
       detail reports could also be generated for a specific number of top blocked NARA
       staff in each category, which would provide NA and NGC more information in
       deciding whether to pursue disciplinary actions. In addition, NH could generate web
       proxy reports to determine the extent of NARA staff bypassing the web filter




                                         Page 10
                      National Archives and Records Administration
                                                           OIG Audit Report No. 11-10




                   Figure 1. Screenshot of Websense Standard Reports

•   Real-Time Alerts. Websense allows the administrator to set up alerts based on a
    multitude of factors. For example, an e-mail alert could be sent to NH whenever a
    NARA employee surpasses 100 blocked “Adult Material: Sex” sites during a 24 hour
    period. NH could provide this timely information to NA for further action.
    Currently, NH only uses this form of Websense alerts in the context of network
    performance; however, this function would also be useful in monitoring inappropriate
    internet usage and enforcing NARA Directive 802.

•   Keyword Blocks. Websense allows the administrator to establish filtering restrictions
    that block sites whose web addresses (URLs) contain certain words. When keyword
    blocking is activated for a category, Websense software blocks any site whose URL
    contains a keyword assigned to the category. For example, NH could review the user
    activity of NARA staff that access inappropriate         (as discussed previously)
    and select keywords to block that are obviously inappropriate.

•   Limit by Quota. Websense allows the administrator to establish user, group,
    workstation, or network time quotas for defined categories. During this review, while
    observing the Websense application in use by an NH contractor, a real-time report
    showed that Facebook was the most active website at NARA. Based on that
                                     Page 11
                  National Archives and Records Administration
                                                                   OIG Audit Report No. 11-10

       information, an example of the quota function would be for the administrator to set an
       arbitrary 2 hour maximum time quota for the category “Society and Lifestyles [Social
       Networking],” which would prevent defined groups of NARA staff from accessing
       Facebook for more than 2 hours each day.

   •   Time Period Policy. Similar to the time quota feature, Websense allows the
       administrator to define policies for NARA staff’s access to specific categories at
       certain times of the workday. For example, NH could set Websense to allow access
       to sites that tend to be personal (i.e., internet auctions, real estate, dating, etc.) only
       during the hours surrounding lunchtime.

NARA has already invested in the Websense application and these features are available for
NARA’s use, however, NH has not implemented all the Websense tools available to
effectively enforce NARA Directive 802. Consequently, NARA underutilizes features that
assist in blocking access to inappropriate websites and enhance NARANET system
managers’ capabilities in meeting their responsibilities in monitoring and detecting improper
use of NARA’s system and IT equipment. NH indicated it is not their responsibility to
determine what Websense features are put to use, however, NH agreed NARA management
should be informed of these features in order to decide whether they should be implemented.

Lack of Enforcement of NARA 802

The effectiveness of NARA Directive 802—like all policy—is in large part dependent upon
the degree to which it is enforced. NARA 802 states NARANET system managers use
monitoring tools to detect improper use of the system and IT equipment. However, in
meetings with NH and NA officials, it became apparent the responsibilities of monitoring are
not well defined. NH officials indicated NA and individual supervisors are responsible for
monitoring inappropriate usage by NARA’s staff. However, an NA official stated there is no
mechanism for allowing supervisors to view their staff’s internet activity. Furthermore, as
described earlier, prior to NH generating the monthly blocked reports for NA and NGC,
NARA’s web filter application was the only formal control in place.

In addition, the monthly reporting process continues to evolve, this is evidenced by the
changing format and differing amounts of information reported from month to month. Also,
the monthly reports are not consistently generated on a given date; some of the reports are
generated weeks after the reporting period. The report currently lists NARA staff and their
respective blocked attempt totals for each of the seven categories. NH has also at times
included a list of the URLs making up the total blocked attempts for each user in a separate
spreadsheet. This additional data provides a greater level of detail, however, it only includes
the blocked attempts, it does not include the inappropriate sites accessed using
                                  Furthermore, up until now, the prevailing mentality has been
that the sites on the blocked report were actually blocked, but our review discovered that in
nearly all cases, if                                                            the user is
granted access.

The effectiveness of NARA 802 is further impacted as NA has not established formal
procedures for reviewing the monthly report generated by NH. An NA official indicated they
                                         Page 12
                      National Archives and Records Administration
                                                                OIG Audit Report No. 11-10

review the list for egregious users, however no threshold has been established by NA to
define what constitutes egregious inappropriate usage. Furthermore, NA focuses primarily
on only two of the inappropriate categories: “Adult Material: Nudity” and “Adult Material:
Sex.” Although NARA Directive 802 specifically prohibits gambling, it is not something
NA has looked into even though past monthly reports have identified users who have
consistently attempted, and likely accessed, gambling sites.

During the first five months of the new reporting procedure, NA had contacted one user’s
supervisor in regards to inappropriate internet usage. However, during this timeframe there
were multiple NARA employees who consistently showed up on the list with hundreds of
blocked attempts in various inappropriate categories. In some of the samples reviewed, the
monthly blocked attempt report is just the tip of the iceberg in terms of what inappropriate
sites were actually accessed by NARA staff. Consequently, NA is only able to review
information it is provided by NH. If NH does not fully embrace the monitoring tools
available, NA will not have the information needed to fully enforce the policy.

Potential Impact of Not Fully Enforcing NARA Directive 802

NARA’s failure to fully enforce NARA Directive 802, as identified in this report, results in
exposure to significant risks as outlined below:

   •   Decreased Public Trust. As mentioned earlier, Congress and the media have taken
       interest in the level of inappropriate internet usage by federal staff within the past
       year. As NARA continues to strive to address challenges facing its core goals,
       harmful distractions caused by inappropriate NARA staff internet usage must be
       avoided. NARA’s customers and stakeholders place enormous trust in NARA to
       fulfill its mission, as demonstrated at other federal agencies, inappropriate internet
       usage can negatively impact this trust and add doubt to the agency’s ability to meet
       its mission.

   •   Reduced Employee Productivity. NARA Directive 802 authorizes NARA staff to use
       the internet for personal reasons, provided it is during non-work time and does not
       interfere with official business or involve inappropriate use. NARA’s embrace of
       social media and networking tools is evidenced by the popularity of these sites
       accessed by NARA staff. However, if working on social networking tools does not
       fall within the NARA employee’s job function, hours spent on personal networking
       can negatively impact efficiency and job performance. Similarly, any time spent
       accessing inappropriate sites is time being taken away from NARA meeting its
       mission and providing timely services to its customers.

   •   Legal Liability. In accessing sexually explicit internet sites, NARA staff can
       contribute to creating a hostile work environment. When certain employees
       repeatedly access sexually explicit material in the workplace, others may be offended
       or uncomfortable and ultimately bring an action against the agency. This could


                                         Page 13
                      National Archives and Records Administration
                                                                 OIG Audit Report No. 11-10

        potentially lead to costs associated with defending the case, along with any resulting
        settlements or awards.

    •   Degradation of Network Performance. Excessive non-business use of the internet
        increases system exposure to viruses and malware and can cause degradation of
        network performance. Of particular concern are large video and graphic files often
        offered for download by sexually explicit sites. Network congestion can cost an
        organization not only in terms of slowed network performance, but also in the need to
        upgrade network resources.

Without the proper controls in place to ensure employee compliance with NARA
Directive 802, NARA is at risk for continued employee abuse of the internet. NARA has
taken important steps toward implementing the necessary tools to monitor and restrict
inappropriate employee internet usage, including establishing appropriate use policy,
installing a web filtering application, and establishing a process to generate monthly
blocked attempt reports. However, NARA has not developed adequate procedures and
devoted the resources necessary to fully enforce NARA Directive 802. NARA staff use a
number of methods to bypass NARA’s web filtering application, even though additional
tools are readily available to NARA management to restrict inappropriate access.
Further, the recently implemented reporting process does not provide the full detail of the
inappropriate use taking place, and therefore disciplinary actions are not regularly
pursued or enforced by NA.

Recommendations

1. We recommend NA, NH, and NGC work together to:

   a. Develop an interdisciplinary team equipped to identify inappropriate use and address
      violations of NARA Directive 802 with suitable administrative action.
   b. Establish a threshold of blocked attempts by individual users warranting further
      analysis for each NARA Directive 802 category.
   c. Develop a monthly report format containing all the user activity for the NARA staff
      that surpasses the established blocked attempt thresholds.
   d. Define formal roles and responsibilities in monitoring and analyzing the reports
      generated.
   e. Establish formal criteria based on blocked attempts and successful access totals used
      to determine if supervisor notification and administrative action is appropriate.

2. We recommend NA provide notice to NARA staff that NA and NH are aware of web
filter bypass methods in use (i.e.,
etc.) and focus will be directed toward identifying violators and aggressively pursuing
disciplinary action, up to and including removal.

3. We recommend NH work with the Websense contract staff on a regular basis to
implement all available web filter application features and tools that assist with monitoring


                                         Page 14
                      National Archives and Records Administration
                                                             OIG Audit Report No. 11-10

and enforcing staff internet usage in accordance with NARA Directive 802. These include,
but are not limited to:

   a. Generating a customized report identifying NARA users frequenting
                  websites and analyzing the user activity to determine the extent of
      inappropriate usage.
   b. Establishing keyword blocks based on inappropriate              accessed; these
      keyword blocks should be used to limit                    accessible to NARA
      employees.
   c. Determining the feasibility of real-time alerts in relaying inappropriate NARA
      staff internet usage to NA in order to provide the information in a timely manner.
   d. Determining the feasibility of quota limits and time period features limiting the
      amount of time NARA staff can access non-work related websites throughout the
      workday.

4. We recommend NH develop a formal schedule to test Websense for intermittent failures
and develop procedures for ensuring the web filtering application is reliable.

5. We recommend NH establish tests and procedures to ensure the Websense application at
NARA field locations are uniformly configured and no systems are bypassing the web filter.

Management Response

Management concurred with the recommendations.




                                        Page 15
                     National Archives and Records Administration
                                                          OIG Audit Report No. 11-10


Appendix A – Example of                                               Accessed
with no Web Filter Restriction

NARA staff are easily able to access inappropriate material posted           As
shown below in an example of a site visited by a NARA employee,         itself has a
warning page indicating the site may contain adult content. However, NARA currently
does not provide restrictions         no matter what their content.          typically
contain page after page of sexually explicit images.




                                       Page 16
                    National Archives and Records Administration
                                                              OIG Audit Report No. 11-10


Appendix B – Example of Web Filter Bypass


NARA staff made multiple attempts at accessing                      In the example below,
one NARA user accessed                        which lists a number of               that are
not blocked by web filter applications. Once selected, the
                                                                                      The
example below shows a cropped portion of an adult site that is easily accessible via
        Although                 may not be blocked by Websense, it still shows up on the
user’s web log, therefore, a review of the log can identify users accessing       .




                                         Page 17
                      National Archives and Records Administration
                                                             OIG Audit Report No. 11-10


Appendix C – Example of a Site Accessed by


A number of NARA staff                                                               which
based on our analysis typically resulted in the web filter application allowing access.
Below is a screen shot of an
resulting in access to the page. “              ” was frequented by one of the users
sampled over 700 times during a three month period. The site contains sexually explicit
videos and images.




                                        Page 18
                     National Archives and Records Administration
                                                              OIG Audit Report No. 11-10


Appendix D – Example of Inappropriate Sites
Accessible through Message Boards and Forums

One of the sampled NARA users visited a secret craigslist forum list “                   ”
72 times over a three month period, followed by thousands of forum visits. The
Websense web filter application categorized this site and the sites accessed through it as
                                                                               both of
which are not blocked by the Websense application. A portion of a screenshot of
“                  ” below gives an example of some of the numerous explicit forum
topics available through the site. These forums often contain attached images of
inappropriate material which are not typically blocked by the Websense application (a
cropped version is shown below).




                                        Page 19
                     National Archives and Records Administration
                                                             OIG Audit Report No. 11-10


Appendix E – Example of Discrepancies in Sites
Blocked across NARA’s Network

NARA users at field locations are not uniformly restricted from inappropriate websites.
The example below shows the unrestricted access of the hack site                    during
a separate review at                                             . However, prior to the
site visit, the same website was appropriately blocked at Archives II. This, as well as
other examples shows inconsistencies among web filtering at various NARA locations.




                                        Page 20
                     National Archives and Records Administration
                                                                              OIG Audit Report No. 11-10


Appendix F – Management’s Response to the Report




       NAT IONAL
       ARCHIVES



           Dale:              MlUth 7. 2QII
           To:                Paul Brachfeld, Inspector Oenr:ntl
           From:           David S. Feniero, Archivist ofthc United Stales
           Subjccc:           Audit Memorandum 11·10, Audit of lnapproprilte Personal UK ofthc Internet at
           NARA




           Thank you for the opponunity 10 comment on this draft report. The report includes five
           recommendations. We concur with all fi ve recommendations and have already begun womng to
           contain !lOme of the problems noIcd in the draft report.
           If you have questions about these comments. please contact Mary Drak at mary,drak@n!va,goy
           or by phone at 301·837· 1668.



           David S. Feniero
           Archivist oflhe United StaleS




      NATIONAL A.CHIVI~ ..J
      lieu. os AOMIN')I .AlION
         '11&1 "ourll! ROAD
      COLUG, PARI:. MU 207<o·tOCn
           ..........1.0.".


                                         Page 21
                      National Archives and Records Administration
                                                           OIG Audit Report No. 11-10


Appendix G - Report Distribution List

David S. Ferriero, Archivist of the United States (N)
Adrienne C. Thomas, Deputy Archivist of the United States (ND)
Rick Judson, Acting Assistant Archivist for Administration (NA)
Charles Piercy, Acting Assistant Archivist for Information Services (NH)
Gary M. Stern, General Counsel (NGC)
Steven Heaps, IT Policy Branch Chief (NHPL)
Mary Drak, Policy and Planning Staff (NPOL)




                                        Page 22
                     National Archives and Records Administration
